Soa
I

C@OCKLE

. E-Mail Address:
Le ga 1 Bri e fs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No.

GEOPHYSICAL SERVICE, INCORPORATED,
Petitioner,
v.
TGS-NOPEC GEOPHYSICAL COMPANY,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 6846 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 10th day of January, 2020.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary ยง ,
State of Nebraska : Lose Qudraw- 7
My Commission Expires Nov 24, 2020 :

Notary Public Affiant 39222

 
